  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General

        Audit of FEMA’s Individuals and 

      Households Program in Miami-Dade 

     County, Florida, for Hurricane Frances 





               Office of Audits
OIG-05-20                              May 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by the OIG as
part of its DHS oversight responsibility to promote economy, effectiveness, and efficiency within the
department.

This report assesses the strengths and weaknesses of the department’s Individuals and Households
Program. It is based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Acting Inspector General
Contents

  Introduction......................................................................................................................................3

  Results in Brief ................................................................................................................................3

  Background ......................................................................................................................................4

  Purpose, Scope, and Methodology...................................................................................................6

  Results of Audit ...............................................................................................................................8

       Amendment to Major Disaster Declaration ..............................................................................8

       Verification of IHP Disaster Losses for Other Needs Assistance............................................12

             Repairing and Replacing Household Room Items Should Be More Closely Aligned to
             Actual Losses .....................................................................................................................12
             Verification of Personal Property Losses Using Verbal Representations .........................15
             Guidance Needed for Authorizing Assistance to Replace or Repair Automobiles ...........16
             Eligibility Criteria to Determine When to Pay for Funeral Expenses Need Refinement ..18
             Need For Disaster-Related Miscellaneous Items Could be Better Verified ......................21

       Verification of IHP Disaster Losses for Housing Assistance ..................................................23

             Expedited Rental Assistance Not Provided Based on Proven Need..................................23
             Controls Over Rental Assistance Eligibility Need Improvement ......................................25
             Controls Over Home Repair and Replacement Assistance Need Improvement................27

       Oversight of Inspections Needs Improvement.........................................................................28

             Contractor’s Review of Inspection Work ..........................................................................28
             FEMA’s Review of Inspection Data..................................................................................29
             Inspectors’ Independence...................................................................................................30


Appendices

  Appendix A:             Description of the Saffir-Simpson Hurricane Scale .............................................32
  Appendix B:             The President’s Declaration of a Major Disaster for Hurricane Frances……….34
  Appendix C:             Detailed Breakdown of IHP in Miami-Dade Approved and Audited Costs ........35
  Appendix D:             Room Items That May Be Funded Under the ONA Component of the IHP .......36



                                                                                                                                   Page 1
Contents
  Appendix E:   FEMA’s Automobile Replacement Awards Versus Blue Book Values ..............38
  Appendix F:   Data Queries Performed by FEMA Inspections Services Branch........................39
  Appendix G:   Recommendations ................................................................................................41
  Appendix H:   Management Comments.......................................................................................43
  Appendix I:   Major Contributors To This Report......................................................................58
  Appendix J:   Report Distribution...............................................................................................59


Abbreviations

   CFR           Code of Federal Regulations
   DHS           Department of Homeland Security
   EP&R          Emergency Preparedness and Response
   EA            Expedited Assistance
   FEMA          Federal Emergency Management Agency
   IHP           Individuals and Households Program
   MPH           Miles Per Hour
   NEMIS         National Emergency Management Information System
   OIG           Office of Inspector General
   ONA           Other Needs Assistance
   PDA           Preliminary Damage Assessments
   U.S.          United States
   SBA           U.S. Small Business Administration




                                                                                                                   Page 2
OIG
Department of Homeland Security
Office of Inspector General


Introduction
                   In 2004, the State of Florida was affected by an unprecedented four hurricanes
                   in two months causing widespread damage and destruction. The inclusion of
                   Florida’s Miami-Dade County in the declaration for Hurricane Frances and
                   subsequent awards of approximately $31 million by the Federal Emergency
                   Management Agency (FEMA) under its Individuals and Households Program
                   (IHP) has been the subject of public scrutiny from Federal, State, and local
                   elected officials, the U.S. Congress, and the news media. In particular, they
                   questioned whether conditions in Miami-Dade warranted a Presidential
                   disaster declaration and whether the level and type of IHP assistance provided
                   to Miami-Dade County residents was justified.

                   The purpose of our audit was to determine whether FEMA had sufficient
                   evidence to support the county’s eligibility for IHP assistance and whether
                   adequate program controls existed to ensure that funds were provided only to
                   eligible applicants, for eligible expenses.

Results in Brief
                   The administration of the IHP has two key control points: (1) the disaster
                   declaration and related amendment process, which is designed to assess
                   damages and losses and determine and document the need for a major disaster
                   declaration and FEMA assistance; and (2) the inspection of damages and
                   verification of losses reported by individuals and households to determine
                   whether the losses are disaster-related and eligible for FEMA assistance. Our
                   review of the IHP in Miami-Dade disclosed shortcomings in both areas.




                                                                                     Page 3
             Specifically: (1) FEMA designated Miami-Dade county eligible for
             Individual Assistance programs without a proper preliminary damage
             assessment; (2) funds provided for repairs and replacement of household room
             items were not based on actual disaster-related damages or losses; (3) the
             verification of some personal property damages or losses were based on
             undocumented verbal representations; (4) guidance and criteria for replacing
             and repairing of automobiles and the reimbursement of expenses for funerals
             and other items were generally lacking; (5) some Expedited Rental Assistance
             applicants received, but may not have had a need for such assistance; and (6)
             rental assistance awards were made to some applicants without reasonable
             assurance of eligibility.

             Further, FEMA’s oversight of inspections needs improvement. Specifically:
             (1) contractors were not required to review inspections prior to submission;
             (2) edit checks for inspection errors were made after payment rather than
             before; and (3) no provisions existed for inspectors to recuse themselves from
             inspections that may present possible conflicts of interest.

             The policies, procedures, and guidelines used in Miami-Dade County for the
             IHP were also used throughout the State of Florida, casting doubt about the
             appropriateness of IHP awards made to individuals and households in other
             counties of the state as a result of the four hurricanes, particularly those
             counties that had only marginal damage. Further, according to FEMA
             officials, most of the procedures were used for disasters in other states making
             the conditions and recommendations broadly applicable to FEMA’s
             implementation of the IHP nationwide.

Background
             In response to Hurricane Frances, FEMA was placed in a unique situation
             because weather forecasters had predicted hurricane force winds and
             substantial damage to the coastal communities of eastern Florida, including
             Miami-Dade County. However, these predictions were not realized in the
             county and the disaster-related impact upon residents was not documented by
             damage assessments. These factors, along with the previous and subsequent
             hurricanes, strained inspection resources, tested program controls, and made
             the IHP more susceptible to fraud, waste, and abuse.

             In addition to the hurricanes that affected Florida in 2004, FEMA had to
             respond to and assist victims of other major disasters during the year. FEMA
             indicated that during the Florida disasters, its Recovery Division was
             simultaneously delivering aid to individuals and households in 15 states and



                                                                                 Page 4
                             two territories. According to FEMA, the upsurge of disaster activity during
                             the year proved well above its standing operational capabilities necessitating
                             the hiring and training of additional staff and contract personnel. A more
                             detailed description of FEMA’s disaster efforts for 2004 can be found in
                             Appendix H, FEMA’s response to our draft audit report.

                             Hurricane Charley, declared on August 13, 2004, made landfall as a Category
                             IV1 storm hitting the southwestern part of Florida and crossing the state in a
                             northeastern direction. Frances, a Category II hurricane, declared on
                             September 4, 2004, struck central Florida from the Atlantic Ocean and
                             proceeded in a northwesterly direction. Declared on September 13, 2004,
                             Ivan, a Category III hurricane, impacted the state’s western edge, and
                             Hurricane Jeanne, declared on September 26, 2004, also a Category III storm,
                             followed a path similar to Hurricane Frances.

                             The combined damage caused by those hurricanes affected, in varying
                             degrees, most if not all counties in the state. As a result, the President
                             declared all four hurricanes major disasters under the Robert T. Stafford
                             Disaster Relief and Emergency Assistance Act (Stafford Act), Public Law 93-
                             288, as amended. The designation of a major disaster by the President
                             authorizes FEMA to provide federal assistance to designated counties in a
                             declared state. As of March 4, 2005, FEMA had approved approximately
                             $1.13 billion in disaster funding to individual applicants and households
                             affected by the four hurricanes in Florida. Nearly $31 million of this amount
                             was awarded to individuals and households in Miami-Dade County as a result
                             of Hurricane Frances. FEMA received 19,236 applications for IHP assistance:
                             12,868 approved, 5,616 disapproved, 728 withdrawn, and 24 pending.

                             In addition to the nearly $31 million awarded under the IHP in Miami-Dade
                             County, FEMA awarded $182,586 to cover emergency protective measures
                             and debris removal. Also, the U.S. Small Business Administration (SBA)
                             approved 126 loans valued at $1.3 million to individuals and businesses in
                             Miami-Dade County, and insurance companies approved about $43.5 million
                             in payments in Miami-Dade County for insurance claims made as a result of
                             Hurricane Frances.

                             The IHP provides financial and direct assistance to eligible individuals and
                             households who have uninsured expenses or needs and are unable to meet
                             those expenses or needs through other means. For Hurricane Frances, the



1
    See Appendix A for a description of the Saffir-Simpson Hurricane Scale that rates a hurricane’s intensity.


                                                                                                                 Page 5
                          maximum amount of IHP assistance an individual or household could receive
                          was $25,600.2

                          The IHP has two major components: Housing Assistance and Other Needs
                          Assistance (ONA). As of February 28, 2005, residents of Miami-Dade
                          County received approximately $13 million under the Housing Assistance
                          component for temporary rental assistance, home repairs, and home
                          replacement. Under the ONA component, a cost-shared partnership between
                          FEMA and the State, applicants received approximately $18 million for
                          personal property items and funeral and medical expenses.3 States may
                          choose to administer IHP’s ONA provision or to have FEMA administer the
                          program.4 For Hurricane Frances, Florida elected to have FEMA administer
                          the program. Though Florida chose not to administer ONA, it retained
                          influence over the program by determining which household items would be
                          eligible for reimbursement, recommended pricing for automobile repair and
                          replacement, as well as award levels for funeral assistance.

                          FEMA’s Headquarters Recovery Division is responsible for developing
                          policies, regulations, and guidance governing the IHP. FEMA used contract
                          inspectors to verify personal and real property losses and damages of
                          individuals and households and its own staff to verify reported disaster-related
                          deaths and medical and dental needs. FEMA’s Inspections Services Branch in
                          Berryville, Virginia, oversees the contract for inspectors. These contract
                          inspectors visit applicants’ homes to verify disaster-related damages to real
                          and personal property. Inspectors upload their findings to FEMA’s processing
                          system, the National Emergency Management Information System (NEMIS)
                          that can reportedly determine eligibility in over 90 percent of cases based
                          upon a series of business rules coded in its software. FEMA caseworkers
                          process cases that cannot be automatically processed, determining an
                          applicant’s eligibility for disaster assistance.

Purpose, Scope, and Methodology
                          Our audit addressed the Presidential disaster declaration for Hurricane Frances
                          that was amended to include Miami-Dade County as eligible for the full
                          complement of FEMA’s Individual Assistance programs, including the IHP.



2
  The maximum grant amount is adjusted annually to reflect changes in the Consumer Price Index. See 68 Federal
Register 59413 (October 15, 2003).
3
  Under the ONA component of the IHP, a State must provide a 25% match.
4
  44 Code of Federal Regulations 206.120


                                                                                                       Page 6
The purpose of our audit was to determine whether FEMA had sufficient
evidence to justify including Miami-Dade County among the counties eligible
for IHP assistance, and whether adequate program controls existed to ensure
that funds were provided only to eligible applicants, for eligible expenses.

Based on the provisions of Title 44 of the Code of Federal Regulations (CFR),
along with related FEMA policy and guidance, we evaluated the basis for
FEMA’s controls over and funding decisions reached in each major
expenditure category. We tested the appropriateness of awards totaling
$936,979, or 3 percent of the nearly $31 million awarded under the IHP to
Miami-Dade County residents (see Appendix B).

We conducted site visits and interviewed FEMA officials in Washington, DC,
the National Processing Service Center in Berryville, Virginia, and at the
Hurricane Frances Disaster Field Office in Orlando, Florida; and FEMA
contractors located in Falls Church and Herndon, Virginia, and in Los
Angeles, California. These contractors were responsible for inspecting and
verifying losses sustained by disaster applicants and for developing prices for
replacing or repairing items that may have been damaged, lost, or destroyed as
a result of the disaster. In addition, we interviewed officials from the National
Oceanic and Atmospheric Administration’s National Weather Service.

The audit covered the period September 4, 2004, to February 28, 2005. In an
effort to make the audit as current as possible, certain activities were reviewed
through March 7, 2005.

We performed the audit between January and March 2005, under the authority
of the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. We did not, however, evaluate the
controls in NEMIS or the validity and reliability of its data. Such an
evaluation would have required extensive planning and testing of NEMIS’
application controls, and would have significantly delayed completion of our
fieldwork. Moreover, if performed, the results of the evaluation would not
have had a significant impact on the findings presented in this report because
we found a need for improved procedures and controls based on substantive
tests of specific cases from NEMIS and we did not project our findings to any
larger universe of files within NEMIS.

Consistent with government auditing standards, our audit procedures provided
due diligence to situations involving potential fraud. Our efforts in this area,
however, were not to pursue fraud matters to legal resolution or to project the
extent of fraud. All matters involving fraud are referred to the OIG’s Office
of Investigations where such matters are pursued in coordination with the


                                                                     Page 7
                     appropriate U.S. Attorney’s Office. As of March 2, 2005, the OIG’s Office of
                     Investigations, working with the U.S. Attorney’s Office for the Southern
                     District of Florida, arrested 14 individuals for making false claims. Other
                     investigations are ongoing.


Results of Audit

Amendment to the Major Disaster Declaration
                     FEMA designated Miami-Dade County eligible for Individual Assistance
                     programs, which included the IHP, without a documented assessment of
                     damages or analyses of the impact Hurricane Frances had on the area. As a
                     result, individuals and households, not severely affected by the hurricane,
                     were eligible to apply for assistance. This situation, along with the previous
                     and subsequent hurricanes, strained FEMA’s inspection resources, tested
                     program controls, and made the IHP more susceptible to potential fraud,
                     waste, and abuse.

                     Prior to presenting a request for a major disaster declaration to the President,
                     FEMA has established procedures to perform Preliminary Damage
                     Assessments (PDAs) in coordination with State and local officials. PDAs are
                     conducted to determine the impact and magnitude of damage and the resulting
                     unmet needs of individuals, businesses, the public sector, and the community
                     as a whole. These assessments are used as a basis for the State’s Governor to
                     prepare a request for Federal assistance and by FEMA to document the
                     recommendation made to the President in response to a Governor’s request.

                     While FEMA typically conducts PDAs prior to providing its recommendation
                     to the President on whether a major disaster declaration under the Stafford Act
                     is warranted, Federal regulation 5 allows Governors to make expedited
                     requests without a PDA for catastrophes of unusual severity and magnitude.
                     However, in the case of Miami-Dade, the President’s declaration specified
                     that additional assistance would be subject to a PDA. Further, even in cases
                     where PDAs are not necessary, federal regulation6 requires FEMA to later
                     assemble and document an estimate of the amount and severity of damages
                     and losses. Additionally, Federal regulation7 requires that requests for



5
  44 CFR 206.33(d)
6
  44 CFR 206.36(d)
7
  44 CFR 206.40(c)


                                                                                         Page 8
                         additional designations after a declaration be accompanied by appropriate
                         verified assessments and commitments by State and local governments.

                         Governor’s Request

                         In anticipation of the impact of Hurricane Frances, Florida’s Governor
                         submitted a disaster declaration request on September 2, 2004, to FEMA’s
                         Region IV requesting that all 67 counties in the state be declared eligible for
                         Public Assistance and that 18 counties8 be declared eligible for the full
                         complement of Individual Assistance programs, including the IHP. The
                         request was made one day prior to Frances making landfall and was based on
                         predictions by the National Hurricane Center that those counties were likely to
                         experience substantial damage from storm surge and hurricane force winds.

                         Recommendation of FEMA’s Region IV and the Under Secretary

                         On September 2, 2004, using information contained in the Governor’s request,
                         FEMA’s Region IV made a recommendation to FEMA Headquarters on the
                         degree to which assistance should be provided. On September 3, 2004, the
                         Emergency Preparedness and Response (EP&R) Under Secretary made his
                         recommendation to the President on the degree to which assistance should be
                         provided.

                         Presidential Declaration

                         On September 4, 2004, the President declared a major disaster, specifying that
                         Public Assistance (Categories A and B only) be made available to all counties
                         and Individual Assistance to five counties (Brevard, Indian River, Martin,
                         Palm Beach, and St. Lucie). The Presidential declaration also authorized
                         FEMA to provide assistance beyond the designated area “…subject to
                         completion of Preliminary Damage Assessments.”9

                         FEMA’s Amendment

                         Effective September 5, 2004, FEMA amended the declaration to make
                         Individual Assistance available to residents of Miami-Dade County and the
                         other 12 counties that were initially requested by the Governor, but excluded
                         in the President’s declaration. According to a typed document in FEMA’s
                         declaration file, FEMA’s Recovery Division Director in Headquarters made

8
  Brevard, Broward, Citrus, Glades, Hernando, Highlands, Indian River, Lake, Martin, Miami-Dade, Okeechobee,
Orange, Osceola, Palm Beach, Pasco, Polk, St. Lucie, and Sumter counties.
9
  See Appendix B for the President’s declaration.


                                                                                                     Page 9
                            the decision to add those counties “Based on the path of Hurricane Frances as
                            it made landfall on September 5, 2004.” However, the file contained no
                            evidence of a preliminary damage assessment as specified in the President’s
                            September 4, 2004, declaration.

                            According to available records, both the Governor’s request and FEMA’s
                            decision to provide Individual Assistance in Miami-Dade County and the
                            other counties were based on the anticipated path of the hurricane and
                            projected damages. However, according to the National Oceanic and
                            Atmospheric Administration’s National Weather Service, Miami-Dade
                            County did not incur any hurricane force winds, tornados, or other adverse
                            weather conditions that would cause widespread damage. Weather data
                            indicated that the strongest sustained winds were 47 miles per hour (mph),
                            which is considered by the National Weather Services to be tropical storm
                            force winds.10 The strongest peak gusts of winds were 59 mph. Additionally,
                            the highest recorded accumulation of rainfall between September 3 and 5,
                            2004, was 3.77 inches in North Miami Beach. No substantial rainfall
                            accumulation occurred, and the National Weather Service did not report any
                            flooding for Miami-Dade County during this timeframe.

                            Although Hurricane Frances did not affect Miami-Dade County as predicted,
                            local residents obviously sustained some degree of damage. According to
                            FEMA officials, the affected areas in Miami-Dade County were
                            predominately low-income neighborhoods that contained some of the State’s
                            oldest housing stock. These dwellings were not built to more recent State and
                            local building codes established after Hurricane Andrew, which may have
                            made them more susceptible to greater damages from Frances.

                            In addition, as of March 3, 2005, the Florida Office of Insurance Regulation
                            reported 11,807 property claims and payments of $43.5 million in Miami-
                            Dade County as a result of Hurricane Frances. The type of property damage
                            was not available, but the office reported that structural real property damage
                            accounted for 92% of the payments statewide. Also, as of March 7, 2005, the
                            U.S. Small Business Administration (SBA) had approved 126 loans totaling
                            $1.3 million for home damages.11

                            Nevertheless, such damages did not necessarily warrant federal assistance.
                            Assessing damage is a critical function and component in determining
                            whether an area should be included within a major disaster declaration. It
                            serves to document the extent, type, and location of damages and whether the

10
     A Category I Hurricane has winds of 74 to 95 mph— Tropical Storm have winds ranging from 39-73 mph.
11
     The SBA may make loans available without a Presidential disaster declaration.


                                                                                                       Page 10
                          costs of repairs are beyond the capability of State and local governments to
                          warrant federal assistance. In the absence of such a damage assessment, the
                          inclusion of Miami-Dade County in the amended declaration was
                          questionable. By including the county in the declaration, millions of
                          individuals and households became eligible to apply for the IHP, straining
                          FEMA’s limited inspection resources to verify damages and making the
                          program more susceptible to potential fraud, waste, and abuse.

                          Recommendations

                          We recommend that the Director of FEMA’s Recovery Division:

                          1. Ensure that, for future declarations, preliminary damage assessments are
                             performed to determine and document the type, extent, and location of
                             disaster related damages whenever possible.

                          2. Develop clearer guidance defining circumstances where complete PDAs
                             may be unnecessary or infeasible.

                          FEMA’s Comments and OIG Analysis

                          FEMA disagreed that damage assessments were required to be performed to
                          document the extent, type, and location of damages prior to designating
                          Miami-Dade County. FEMA stated

                               “There was no statutory or regulatory mandate to perform detailed
                               PDA’s prior to designating Miami-Dade County, or any of the other
                               12 counties added at the same time. FEMA’s regulations allow for
                               the PDA to be skipped in situations where the event is of such
                               unusual severity and magnitude that it does not require field
                               assessments to determine the need for Federal assistance.”

                          However, the President’s Declaration, together with other supporting
                          documentation12, reflects a clear intention that a PDA would be conducted
                          prior to adding additional areas.

                          FEMA also stated “The OIG’s decision to unilaterally disregard the damage-
                          confirming findings of thousands of inspections is inexplicable, and detracts
                          from the credibility of the audit process.” Our report acknowledges that


12
  The audit workpapers include documentation which has not been discussed in the report due to FEMA's assertion that
the substance is protected by privilege.


                                                                                                       Page 11
               considerable damage was incurred in Miami-Dade County. Our point is that
               such damages do not necessarily warrant federal assistance.

               Finally, FEMA contends that OIG has advocated that assistance should have
               been delayed pending completion of comprehensive door-to-door damage
               assessments. While we believe that a PDA was necessary to support a
               declaration for Miami-Dade, we never suggested that a door-to-door
               assessment of damages was needed as part of that assessment.


Verification of IHP Disaster Losses for Other Needs Assistance
               As of February 28, 2005, FEMA provided $18 million in ONA to Miami-
               Dade County individuals and households in response to Hurricane Frances.
               Program controls for the administration of the ONA need to be tightened and
               accompanied by additional guidelines and criteria to enhance FEMA’s overall
               effectiveness in addressing the disaster-related needs of applicants.

               Unlike IHP’s 100 percent federally funded and administered Housing
               Assistance, ONA is a cost-shared partnership between FEMA and the State.
               As part of this partnership, FEMA and the State engage in annual coordination
               efforts to determine how ONA will be administered in any Presidentially
               declared disaster in the coming year. As part of this preplanning, the State
               establishes ONA award levels related to vehicle repairs, vehicle replacement,
               and funeral grants.

               Specifically, improved controls are needed to ensure that assistance provided
               for the repair and replacement of household room items, and some personal
               property damages or losses are disaster-related; and that funding decisions
               based on verbal representations, the replacement and repair of automobiles,
               and funeral expenses are sustainable.


               Repairing and Replacing Household Room Items Should be More Closely
               Aligned to Actual Losses

               FEMA awarded $10.2 million to repair or replace household room items for
               Miami-Dade County residents under the ONA component of the IHP.
               However, the procedures used by FEMA to award funds for those items does
               not limit assistance to only disaster-related losses as required by Federal law
               and regulations.




                                                                                   Page 12
                           Section 408 of the Stafford Act authorizes FEMA to provide assistance to
                           individuals and households who, as a direct result of a major disaster, have
                           uninsured or under insured necessary expenses and serious needs and are
                           unable to meet such needs through other means, such as loans from the SBA.
                           For the purpose of funding grants under this section, Federal regulation13
                           defines “necessary expenses” as the costs associated with items or services to
                           meet a serious need. The regulation defines a serious need as “An item, or
                           service, that is essential to an applicant’s ability to prevent, mitigate, or
                           overcome a disaster-related hardship, injury, or adverse condition.”

                           Consistent with the regulation, a disaster-related hardship, injury, or adverse
                           condition must be supported by a disaster-related loss and to qualify for ONA,
                           the need for assistance cannot be met through other means. However, the
                           procedure used by FEMA to replace household room items allowed for
                           funding of all items in what FEMA constituted as a full room,14 regardless of
                           the actual loss.

                           In assessing the replacement of room items, FEMA required its contract
                           inspectors to verify and document the applicant’s loss generically by room
                           rather than by specific items damaged or lost. Inspectors were also instructed
                           to summarize a room’s damage by using one of the three categories, which
                           formed the basis for the ONA award.

                           •    X = damaged, but repairable or cleanable. When an “X” was assigned, the
                                applicant received a designated percentage of the value of a full room.

                           •    Y = damaged, some items repairable, some should be replaced. When a
                                “Y” was assigned, the applicant received a larger percentage of the value
                                of a full room.

                           •    Z = damaged, replace all items. When a “Z” was assigned, the applicant
                                received the largest percentage of the value of a full room.

                           FEMA applied the X, Y, and Z procedure to four areas of a residence:
                           kitchen, living room, bedroom, and bathroom. FEMA also determined the
                           items that constituted a full room and the items ranged from 9 for a living
                           room to 25 for a kitchen.15 The price for a category Z room ranged from $862
                           for a bathroom to $2,495 for a bedroom. The above procedure may permit

13
   44 CFR 206.111
14
   See Appendix C for room items that may be funded under the ONA component of the IHP.
15
   Items such as televisions, refrigerators, stoves, and other appliances are not included as room items under the X, Y,
and Z procedure.


                                                                                                             Page 13
                        funding to repair or replace items not damaged or destroyed by a major
                        disaster and is, therefore, inconsistent with the Stafford Act and is potentially
                        wasteful.16

                        Both FEMA and contract inspection officials acknowledged that the generic
                        room concept resulted in applicants receiving funds for items they did not
                        have at the time of the disaster. Moreover, although some inspectors
                        voluntarily noted in their reports that individuals and households did not have
                        items included in the FEMA constituted rooms, funding for such items was
                        still provided to applicants. Even though some inspectors questioned this
                        procedure, they had no alternative other than to follow FEMA’s established
                        policy.

                        Under current procedures, contract inspectors must inspect an applicant’s
                        residence to verify damages, losses, and disaster-related needs. Rather than
                        treating a room in the aggregate, inspectors should be able to document, with
                        minimal effort, the actual items, particularly large and more expensive items
                        e.g., bed and chest, damaged as a result of the disaster and support more fully
                        an applicant’s eligible disaster-related needs. This additional effort would
                        produce significant savings and more closely align the ONA component of the
                        IHP with the Stafford Act.

                        Recommendation

                        We recommend that the Director of FEMA’s Recovery Division:

                        3. Modify FEMA’s inspection procedures to identify more accurately
                           disaster-related losses of household items for which applicants should be
                           compensated.

                        FEMA’s Comments and OIG Analysis

                        FEMA agreed with our recommendation and said that it is reviewing the use
                        of the generic room concept. FEMA believes that, with today’s technology, it
                        can increase the specificity of the inspection without substantially increasing
                        the time required to complete an inspection.




16
  In an audit performed by the OIG for FEMA, Review of Selected Disaster Relief Program Activities Related to
Hurricane Hugo-Puerto Rico and the U.S. Virgin Islands, Report Number H-09-01, March 1991, FEMA OIG made the
same observation about the X, Y, and Z procedure.


                                                                                                  Page 14
                         Based on FEMA’s comments, we consider the recommendation resolved. The
                         recommendation can be closed once FEMA completes its analysis and
                         implements changes to current procedures.


                         Verification of Personal Property Losses Using Verbal Representations

                         FEMA awarded $720,403 to 228 applicants for personal property items based
                         upon the applicants’ verbal representations of their losses. In situations where
                         personal property items have been discarded because they may present a
                         health or safety hazard, or are otherwise unavailable for physical inspection,
                         FEMA guidelines17 permit inspectors to record disaster-related losses if the
                         item lost can be reasonably verified through other means.18 In those cases,
                         inspectors are required to document the applicant’s file with the comment “PP
                         Verbal.” However, the guidelines do not require inspectors to document the
                         specific items that were not available for inspection, the verbal representations
                         made, or the evidence used to verify the loss. Moreover, our review of 27 “PP
                         Verbal” files disclosed that this information was not documented. In those
                         cases, the appropriateness of FEMA’s funding decisions cannot be verified.19

                         Recommendation

                         We recommend that the Director of FEMA’s Recovery Division:

                         4. Modify the IHP Inspection Guidelines to require inspectors to specify in
                            the “PP Verbal” file the specific item(s) that was not available for
                            inspection, the verbal representations made, and the evidence used to
                            verify the loss.

                         FEMA’s Comments and OIG Analysis

                         FEMA agreed that documentation of items discarded could be improved and
                         said it will research alternative approaches to augment documentation of “PP
                         verbal” items.




17
   IHP Inspection Guidelines, DR-1545-FL, Revised August 6, 2004.
18
   The decision to approve funding for IHP assistance is made by FEMA Individual Assistance programs staff based
upon recommendations made by FEMA contract inspectors as a result of information they obtained during inspections.
19
   Two applicants who received assistance based on “PP Verbal” were among the 14 individuals indicted by the U.S.
Attorney for filing false claims with FEMA.


                                                                                                      Page 15
                            Based on FEMA’s comments, we consider the finding resolved. The finding
                            can be closed once FEMA completes the planned research and implements
                            changes to current procedures.


                            Guidance Needed for Authorizing Assistance to Replace or Repair
                            Automobiles

                            Contract inspectors were not required to validate how damages to automobiles
                            were disaster-related. Additionally, for the approvals we reviewed, the
                            amount authorized for automobile replacement, particularly for older vehicles,
                            in our opinion, was generally far in excess of the market replacement costs or
                            an amount needed to acquire comparable transportation.

                            Funding for automobile repairs and replacement was based upon award
                            amounts established by the State during annual ONA pre-planning and
                            approved by FEMA staff. The guidelines20 FEMA developed contain general
                            conditions of eligibility for automobile repair and replacement assistance.
                            According to the guide, the automobile must be properly registered and
                            comply with State laws regarding liability insurance, and the applicants must
                            not be able to meet their needs through other sources, such as comprehensive
                            insurance. Also, verification of needs must be performed by a contract
                            inspector on site or by a licensed mechanic.

                            The FEMA guidelines indicate that inspectors are to record only disaster
                            damages. The guide, however, does not require the inspector or mechanic to
                            document the type of damages sustained, or how the disaster caused the
                            damages, a condition that must be met to be eligible for IHP assistance.

                            We reviewed 21 of the 771 approvals made for automobile replacements and
                            repairs. Those approvals, 18 for automobile replacement at $6,500 each and 3
                            for repairs totaling $6,878, resulted in ONA payments of $123,878. Case files
                            for 13 replacement approvals did not have any documentation or explanations
                            to indicate the type of damage sustained or to establish a relationship between
                            the damage and the disaster. The file simply noted that the automobiles were
                            destroyed.

                            Contract inspectors, and in one case a mechanic, did provide an explanation
                            for their recommended approval of automobile replacement in the remaining
                            five cases. The files indicated that two automobiles were destroyed by
                            floodwaters, two by water in the motor, and one by an electrical fire.

20
     Other Needs Assistance Reference Guide, dated September 24, 2004.


                                                                                               Page 16
                           However, the contract inspectors and mechanic did not document the basis for
                           their conclusions, e.g., diagnostic analysis or evidence of a high water level.
                           In addition, the National Weather Service had no reports of flooding in the
                           area where the four recipients lived—Opa-Locka, Homestead, and Miami. In
                           regard to the automobile with the electric fire, the inspector provided no
                           explanation of how the hurricane may have contributed to the fire.

                           In accordance with the State’s established replacement value for eligible
                           disaster-damaged vehicles, FEMA and the State provided $6,500 for each
                           automobile destroyed. For 15 of the automobiles, the retail “blue book” value
                           totaled $56,140; however, FEMA and the State awarded $97,500 for those
                           automobiles21. In our opinion, FEMA should consider working with the
                           States to establish a more reasonable replacement value for destroyed
                           automobiles.

                           We also question the decisions to fund automobile repair costs of $6,878 for
                           three applicants. The first applicant received $3,416 based on an estimate
                           obtained from a mechanic to replace an engine, thermostat, coolant, oil, and
                           filter. However, the mechanic’s estimate stated that the repairs were based
                           upon what the customer told the service advisor to repair and not upon the
                           mechanic’s assessment of needs. The other two applicants received $3,462
                           based entirely on estimates for replacing upholstery and brakes. Information
                           contained in the FEMA inspection files did not indicate how the disaster
                           necessitated a need for the repairs.

                           Recommendations

                           We recommend that the Director of FEMA’s Recovery Division:

                           5. Develop eligibility criteria for funding automobile damage that can be tied
                              to damages sustained as a result of a disaster;

                           6. Modify guidelines to require contract inspectors to document verified
                              automobile damages to allow FEMA to justify awards based on disaster-
                              related needs; and

                           7. Work with the States to establish a more reasonable replacement value for
                              destroyed automobiles based on the cost to acquire a comparable vehicle.




21
     See Appendix D for FEMA awards and related blue book values for automobile replacements in Miami-Dade County.


                                                                                                      Page 17
FEMA’s Comments and OIG Analysis

FEMA agreed with our finding regarding a need for improved criteria and
documentation for automobile repairs and replacement. FEMA said that steps
have already been initiated to address these issues in future software upgrades.
Based on these comments, we consider recommendations 5 and 6 resolved.
The recommendations can be closed once FEMA completes the planned
actions.

Recommendation 7, however, is unresolved. FEMA said that the purpose for
providing transportation assistance is not to reimburse applicants for the blue
book value of their automobiles, but to provide them with the means to obtain
necessary replacement transportation. FEMA also indicated that states differ
widely on the appropriate amount to be awarded to their citizens for
replacement of automobiles and since a consensus has never been reached on
this matter, assistance levels are established with states during annual ONA
preplanning sessions.

We acknowledge FEMA’s concerns with using blue book value to provide
automobile replacement assistance as such a value, particularly for older
automobiles, may not always be sufficient for an applicant to acquire
replacement transportation. Accordingly, we have deleted any reference to
market value in the recommendation. On the other hand, older vehicles can
generally be replaced with a comparable vehicle for less than the $6,500
replacement threshold established in Florida or the $6,183 nationwide
average. Therefore, we believe FEMA should work with the states to
establish more realistic replacement values.

Eligibility Criteria to Determine When to Pay for Funeral Expenses Need
Refinement

Unlike other classes of ONA that are well-suited for rapid processing through
FEMA’s automated system, funeral cases are manually processed and
coordinated among Regional office officials, NPSC caseworkers, State
officials, and victims’ families. In Miami-Dade, FEMA caseworkers
authorized payments of $15,743 for three funerals, which we concluded were
insufficiently documented to establish the deaths as disaster-related. This
occurred because FEMA did not have criteria for determining whether deaths
are disaster-related and eligible for funding.




                                                                    Page 18
                            Federal regulation22 authorizes FEMA to provide financial assistance for
                            funeral items or services to meet the disaster-related necessary expenses and
                            serious needs of individuals and households. Those expenses are generally
                            limited to the cost of funeral services, burial or cremation, and other related
                            funeral expenses. However, to be eligible for funeral assistance, the death
                            must be a “direct result” of the disaster.23

                            The ONA guide specifies sources to use when determining whether the loss of
                            life was disaster-related, e.g., hospitals, police and fire departments, coroner
                            offices, and the local media reports. However, the guide does not provide any
                            criteria or examples of circumstances that would constitute a “disaster-
                            related” death eligible for FEMA funding. Additionally, in the case of the
                            three funerals funded in Miami-Dade, documentation did not demonstrate that
                            the deaths were a direct result of the disaster.

                            Death from Heart Attack. FEMA awarded $7,500 to cover the funeral of a
                            man who had died of a “critical coronary atherosclerosis,” or heart attack.
                            Documents in FEMA files indicate that the man was found dead at his
                            residence after Hurricane Frances impacted Florida. The Medical Examiner
                            reported that the victim died of natural causes. However, FEMA staff
                            administering the ONA concluded that his death was disaster-related.

                            FEMA files contained a note from a physician who treated the deceased for
                            hypertension, gout, and arthritis. According to the physician’s note, the
                            deceased’s hypertension might have been exacerbated from the stress of the
                            recent hurricane. However, in our opinion, this statement in itself does not
                            support the conclusion that the death was disaster-related and, therefore,
                            eligible for FEMA funding.

                            Death from Automobile Accident. FEMA awarded $3,743 to cover funeral
                            expenses of a resident killed while driving. According to the Florida Traffic
                            Crash Report, the victim lost control of his vehicle, crossed over several lanes,
                            and the vehicle landed on its roof inside a canal.

                            The report identified one contributing cause of the accident—the victim
                            exceeded the State speed limit. The report also identified wet and rainy
                            conditions, but made no mention of Hurricane Frances, which passed through
                            the area before the accident. Months after the incident, FEMA staff received a
                            memorandum from the police official that investigated the accident.
                            According to the memorandum, “…the weather condition during Hurricane

22
     44 CFR 206.119
23
     Other Needs Assistance Reference Guide, dated September 24, 2004, page 36.


                                                                                                 Page 19
                            Frances and wet roadways could have contributed to…[the victim]…losing
                            control of his vehicle….” Again, while the death cannot be established as a
                            “direct result” of the disaster, caseworkers authorized the funeral award based
                            upon the police official’s statement. In our opinion, FEMA officials did not
                            have sufficient evidence to conclude that the victim’s death was disaster-
                            related.

                            Death from Drowning. FEMA paid $4,500 for funeral expenses of a victim
                            who drowned in a pool. According to documentation in the FEMA file, the
                            morning after the victim was reported missing and after searches by neighbors
                            and police, the victim was found deceased in a pool. The Medical Examiner
                            concluded that the death was accidental, without noting any circumstances
                            that would indicate that the death was disaster-related. FEMA officials
                            concluded that the death might have been caused by the disaster. Again, in
                            our opinion, FEMA officials did not have sufficient evidence to conclude that
                            the victim’s death was disaster-related.

                            The Miami-Dade and Broward County Medical Examiners advised us that
                            their investigation of deaths during Hurricane Frances disclosed that none
                            were disaster-related. However, in contrast, the Miami-Dade Medical
                            Examiner determined that, during Hurricane Andrew in 1992, 15 deaths were
                            a direct result of the hurricane and another 15 natural deaths were indirectly
                            related to the storm. The results of the Medical Examiner’s investigation were
                            published in May 1997.24 This publication reflected deaths directly related to
                            the storm resulting from collapsed homes and roofs, caved in walls, and
                            falling debris. The report also reflected the nature of indirect deaths—
                            cardiovascular related—many occurring after the storm.

                            The publication contained a table reflecting the circumstances of direct and
                            indirect deaths that FEMA could use to develop eligibility criteria for funeral
                            expenses. Under current FEMA guidelines, only funerals from deaths that are
                            a direct result of a disaster can be funded.

                            FEMA staff at the Disaster Field Office reviewed information on each death
                            and approved the assistance. However, the files contained insufficient
                            documentation to support the basis for approval.




24
     “Mortality from Hurricane Andrew” published in the Journal of Forensic Science, May 1997.


                                                                                                 Page 20
                      Recommendations

                      We recommend that the Director of FEMA’s Recovery Division:

                       8. Develop criteria and guidelines for determining “disaster-related deaths.”

                       9. Require staff to document their analysis of each request for funeral
                         expense assistance in order to support approval or disapproval of such
                         assistance.

                      FEMA’s Comments and OIG Analysis

                      FEMA said that variations in State medical examiner and coroner procedures
                      have prevented them and the states from establishing national policy on
                      disaster related deaths, but its guidelines were specific about sources to be
                      checked to validate disaster-related deaths. FEMA also said that funeral
                      grants represent a very small percentage of ONA applications and that the
                      effectiveness of controls in place was evidenced by the fact that it denied 70
                      percent of funeral related requests during the 2004 Florida hurricane season.

                      However, FEMA said that it would continue to research ways to improve its
                      eligibility determination process, as well as improve the quality of applicants’
                      case file documentation. Although FEMA indicated an intent to address the
                      issues, it did not describe specific actions. Therefore, we consider the
                      recommendations unresolved until FEMA develops and implements an action
                      plan.

                      Need for Disaster-Related Miscellaneous Items Could be Better Verified

                      FEMA awarded $192,592 for miscellaneous items to applicants in Miami-
                      Dade County based only upon the verification that such items were
                      purchased—not whether a disaster-related need existed.

                      Federal regulation25 allows for funding of items that are not specified in other
                      ONA categories that are unique disaster-related necessary expenses and
                      serious needs of individuals and households. For Hurricane Frances, the
                      State, with FEMA’s approval, identified six unique items for funding: a
                      generator, heating fuel, a wet/dry vacuum, an air purifier, a chainsaw, and a
                      dehumidifier.


25
     44 CFR 206.119


                                                                                           Page 21
                            FEMA’s guidelines26 provide that assistance for miscellaneous items will be
                            awarded based upon site inspection verification or submitted documentation.
                            The guidelines require the miscellaneous items to be: (1) purchased or rented
                            after the incident starting date; (2) purchased or rented within 30 days after the
                            incident starting date; and (3) used in overcoming the affects of the disaster.
                            FEMA caseworkers used these guidelines.

                            For Hurricane Frances, FEMA used the on site inspection process to verify
                            that applicants purchased items during the time of the disaster. FEMA
                            Inspections Services Branch officials said contract inspectors followed
                            procedures in the IHP Inspection Guidelines. However, those guidelines do
                            not contain the requirement that items must be used to overcome the affects of
                            the disaster. Thus, the inspection process was limited to verifying that
                            applicants only acquired the items within specified timeframes.

                            We reviewed the files of three applicants who received $836 each as
                            reimbursement for acquiring a generator. Although not documented in
                            FEMA’s grant file, one could reasonably conclude that the generators were
                            needed to provide power to their primary residences. However, the applicants
                            received rental assistance from FEMA to reside somewhere other than their
                            primary residence as well as being reimbursed for the generators. Without
                            properly validating and documenting an applicant’s need for miscellaneous
                            items, FEMA is reimbursing applicants for items that may not have been
                            acquired in support of a disaster-related need.

                            Recommendation

                            We recommend that the Director of FEMA’s Recovery Division:

                            10. Modify inspection guidelines to require contract inspectors to justify that
                                funding recommendations for miscellaneous items are based upon
                                disaster-related needs.

                            FEMA’s Comments and OIG Analysis

                            FEMA agreed with the recommendation and said that it had implemented in
                            September 2004 a new policy for funding miscellaneous items. The new
                            policy requires that items be purchased within a specific timeframe following
                            a disaster declaration, meet a verified need, and be based on FEMA’s
                            standardized pricing system. FEMA also said that it and its state partners
                            would continue to review and improve the related inspection procedures.

26
     Other Needs Assistance Reference Guide, dated September 24, 2004, page 39.


                                                                                                  Page 22
                         The guidelines FEMA referred to in its comments were used by FEMA
                         caseworkers, not the contract inspectors. For Hurricane Frances, contract
                         inspectors made on-site visits to inspect miscellaneous items and used IHP
                         Inspection Guidelines. On these visits, the inspectors verified that applicants
                         bought the miscellaneous items, not whether the items were acquired to meet
                         a disaster related need. This was not required by the IHP guidelines.

                         We consider this recommendation resolved. It can be closed once FEMA
                         modifies its guidelines for contract inspectors to require a determination of a
                         disaster-related need in line with its September 2004 guidance for
                         caseworkers.


Verification of IHP Disaster Losses for Housing Assistance
                         As of February 28, 2005, FEMA awarded $13.1 million to Miami-Dade
                         applicants for rental assistance and home repair and replacement. However,
                         the implementation of the Housing Assistance component of the IHP was
                         hampered by several procedural omissions and generally weak guidelines for
                         performing inspections and documenting results.

                         Expedited Rental Assistance Not Provided Based on Need

                         FEMA implemented a rarely used procedure within the Housing Assistance
                         component of the IHP called Expedited Assistance (EA), and awarded
                         approximately $1 million to 1,431 Miami-Dade residents. Under EA,
                         applicants were provided a one-time monthly rental assistance payment of
                         $726. Unlike for other rental assistance applicants, on site inspections to
                         verify needs were not performed in advance of EA. To qualify, according to
                         FEMA instructions,27 applicants had to meet certain criteria during
                         registration.

                         FEMA provided $82,764 in EA to 114 applicants who were not, or may not
                         have been eligible. Those applicants reportedly had insurance, did not report
                         a need for housing, or reported that their homes were not damaged.

                         Sixty-four applicants, who received $46,464 of Expedited Assistance, had
                         homeowners insurance that generally covers temporary housing assistance in
                         the event their homes are damaged and declared unsafe. Federal regulation28

27
   A memorandum, dated September 6, 2004, from the National Processing Service Center Coordination Team to Benefit
Processing Staff.
28
   44 CFR 206.110(a) and (h)


                                                                                                     Page 23
                          prohibits FEMA from funding applicants who are able to meet their needs
                          through other means and prohibits duplication of benefits. For those
                          applicants with insurance coverage, according to Federal regulation29
                          temporary housing assistance shall be provided only when payment of
                          insurance benefits have been significantly delayed, benefits are not sufficient
                          to cover housing needs, or when housing is not available in the private market.
                          However, documentation was not available to show that any of these
                          conditions existed to justify EA payments to the insured applicants in Miami-
                          Dade County.

                          FEMA instructed the recipients of EA to file claims with their insurance
                          companies and report back to FEMA on any unmet needs within twelve
                          months. However, five months after the disaster was declared, none of the
                          recipients had reported back to FEMA. In addition, FEMA had no procedures
                          to identify those recipients who were fully compensated by their insurance
                          company for rental costs and were not eligible for FEMA assistance.

                          Twenty-six applicants, who received $18,876 of EA, reported that they did not
                          meet the criteria for such assistance. However, during registration, FEMA
                          erroneously recorded in the applicant files that they were eligible. While
                          caused by a system error that was subsequently corrected, those applicants
                          were not eligible for EA and should not have received funding.

                          Finally, 24 applicants reported that their homes were not damaged. Those
                          applicants received assistance, totaling $17,424, because the EA criteria did
                          not require damage to their primary residence as a condition for eligibility.
                          FEMA amended the EA criteria to require damage to an applicant’s primary
                          residence as a condition for receiving EA under the Hurricane Ivan
                          declaration.

                          Recommendation

                          We recommend that the Director of FEMA’s Recovery Division:

                          11. Recoup the $36,300 paid to individuals who did not report a need for
                              rental assistance or damage to their home.

                          FEMA’s Comments and OIG Analysis

                          FEMA agreed to review all 114 cases of applicants who were not, or may not
                          have been, eligible for assistance and initiate recoupment action, as

29
     44 CFR 206.101 (d)


                                                                                             Page 24
                            appropriate. Based on FEMA’s comments, we consider the recommendation
                            resolved. The recommendation can be closed once FEMA completes its
                            review and recoupment actions.


                            Controls Over Rental Assistance Eligibility Need Improvement

                            In our opinion, sufficient criteria were not in place to reasonably assure that
                            the $9 million of rental assistance provided to 4,985 Miami-Dade County
                            residents was made to eligible applicants. To prevent this from occurring
                            under future disaster declarations, FEMA needs to improve its guidelines for
                            performing inspections, documenting the basis for unsafe home
                            determinations, and recognizing deferred maintenance conditions.

                            According to Federal regulation30 rental assistance may be provided only
                            when an applicant’s primary residence has been made unlivable or the
                            applicant has been displaced as a result of the disaster.

                            During home inspections, contract inspectors are required to verify the
                            primary residence of an applicant, determine whether damages to the
                            applicant’s primary residence were caused by the disaster, and determine
                            whether the disaster made the applicant’s home unsafe. FEMA, however, did
                            not require the inspectors to document, in sufficient detail, the basis for their
                            unsafe determinations.

                            For example, we found that 4,308 applicants who received rental assistance
                            did not indicate a need for shelter at the time of registration or the $8.2 million
                            they eventually received. However, the inspectors determined, reportedly
                            during on-site visits, that their homes were unsafe. For the 60 applicant files
                            that we reviewed, the inspectors reported that the homes were unsafe based on
                            general conditions, i.e., sanitation, windows, doors, roof, etc. The inspectors
                            did not explain those conditions nor did they indicate how or why such
                            conditions made the home unsafe. Moreover, no evidence indicated that those
                            applicants sought other accommodations or resided elsewhere during the two
                            months they received rental assistance. Thus, sufficient evidence was not
                            available to support the determinations that those applicants were in need of
                            and were eligible for rental assistance.

                            In addition, three rental assistance applicants, with only minimal damages,
                            each received two months of rental assistance. One of the applicants received
                            $1,452 for two months of rental assistance because the inspector determined

30
     44 CFR 206.101(f)(1)


                                                                                                  Page 25
that damages of $93 to windows and doors caused the home to be unsafe.
According to FEMA inspection guidelines, a home should not be determined
unsafe when only “minimal disaster-related damages” exist. The guidelines,
however, do not define “minimal damages.”

Deferred maintenance is another key factor in determining habitability
(whether a home is unsafe). Habitability, in turn, is the main determinant for
rental assistance eligibility. FEMA uses the term “deferred maintenance” to
refer to pre-existing damages to a home caused by a lack of maintenance.
FEMA reportedly informed contract inspectors that if deferred maintenance
(and not disaster-related damages) is the primary cause of a home being
unsafe, inspectors should not record the home as being unsafe for purposes of
program eligibility. However, FEMA guidance does not require inspectors to
document their observations of deferred maintenance for consideration with
respect to funding decisions for rental assistance.

Recommendation

We recommend that the Director of FEMA’s Recovery Division:

12. Modify its home inspection procedures to require contract inspectors to
    document (1) the basis for determinations that homes are unsafe, and (2)
    instances of deferred maintenance, including an evaluation of the severity
    of such conditions for housing eligibility decisions.


FEMA’s Comments and OIG Analysis

FEMA agreed that inspection procedures for documenting home unsafe
determinations need improvement. FEMA also indicated that it has started a
review in this area and will continue to review and improve its inspection
procedures. Based on FEMA’s comments, we consider the recommendation
related to home unsafe resolved. The recommendation can be closed once
FEMA develops and implements a plan to document the basis for home
unsafe determinations.

With regard to deferred maintenance, FEMA indicated that documenting
conditions of deferred maintenance tends to add little useful data and such
efforts can be redundant and time-consuming thus delaying the delivery of
assistance. Further, FEMA does not require inspectors to record incidents of
deferred maintenance for cases approved or disapproved. We maintain that
this information should be documented to afford quality control reviews of



                                                                   Page 26
                          inspectors’ work and support decisions made to fund or deny funding for
                          rental assistance. Therefore, we consider the recommendation unresolved.


                          Controls Over Home Repair and Replacement Assistance Need
                          Improvement

                          FEMA awarded $2.7 million to repair 2,180 homes and $132,556 to replace
                          20 homes in Miami-Dade County. The need for improved guidance for
                          unsafe home determinations and deferred maintenance are also necessary to
                          ensure proper funding for home repair. In addition, FEMA needs to improve
                          guidance on documenting the reasons for home repair and replacement.

                          Under Federal regulation31 FEMA can provide financial assistance to
                          homeowners to repair or replace their homes. However, to be eligible for
                          assistance, an applicant’s home must be their primary residence, be
                          determined unsafe based on inspection, and the unsafe condition must be
                          disaster-related.

                          We reviewed 12 home repair awards for $30,475. Like rental assistance, the
                          inspector’s determination of an unsafe home is necessary for an applicant to
                          receive home repair assistance. However, inspectors are currently instructed
                          to base their unsafe determinations on general conditions, i.e., sanitation,
                          windows, etc., and not required to explain how or why such conditions made
                          the home unsafe. We made a recommendation in the previous finding to
                          address this issue.

                          When it is not economically feasible to repair a home or a home is completely
                          destroyed, FEMA guidelines require inspectors to record the properties as
                          “Destroyed.” Inspectors also were required to indicate the general cause of
                          damage, e.g., hail and wind driven rain. However, the guidelines do not
                          require inspectors to document or identify the types of damages to homes to
                          warrant a “Destroyed” determination, e.g., collapsed wall and floodwater.

                          We reviewed 14 home replacement awards for $96,856—ten for boats and
                          four for mobile homes. The general cause of damages recorded for ten home
                          replacements was “hail and wind driven rain.” The general cause of damages
                          for the four remaining home replacements was tornado or wind. Seven of the
                          boats reportedly sank and were not available for inspection. For two of the
                          three remaining boats, the inspector did not record the basis for their
                          “Destroyed” determination. Four mobile homes were reportedly available for

31
     44 CFR 206.117 (b)


                                                                                            Page 27
                         inspection, but inspectors did not identify or document specific damages to
                         justify their “Destroyed” determination.

                         Recommendation

                         We recommend that the Director of FEMA’s Recovery Division:

                         13. Modify its inspection guidelines to require inspectors to identify and
                             document the types of disaster damages sustained to justify a decision that
                             homes are destroyed.

                         FEMA’s Comments and OIG Analysis

                         FEMA agreed that inspectors should provide more information concerning
                         destroyed homes and said that this could be implemented through a procedural
                         change in the inspection guidelines with no additional cost to FEMA.

                         Based on FEMA’s comments, we consider the recommendation resolved. The
                         recommendation can be closed once FEMA modifies its guidelines.


Oversight of Inspections Needs Improvement
                         FEMA’s contract agreements with inspection services providers did not
                         require the contractors to review inspections results prior to submission to
                         FEMA. Additionally, FEMA’s edit checks for inspection errors were made
                         after payments to applicants rather than before. More timely reviews in both
                         these areas may have prevented approximately $24.4 million32 of ineligible or
                         excessive payments that FEMA has made throughout the United States and its
                         territories from August 2004 to February 2005. Of those funds, $215,214 was
                         provided to applicants in Miami-Dade County.

                         Also, no provisions in the contract agreements required inspectors to certify
                         their independence and recuse themselves from inspections that may present
                         possible conflicts of interest.

                         Contractor’s Review of Inspector Work

                         FEMA awarded two private firms contracts in February 2001 to inspect and
                         verify losses and damages reported by applicants for FEMA assistance. These
32
  The $24.4 million in errors was identified by FEMA for disasters declared between August 2004 and February 2005.
FEMA informed us that it is validating errors and will initiate recoupment where appropriate.


                                                                                                       Page 28
contractors retained individuals, as independent contractors, to perform the
required inspection services. However, FEMA did not require the contractors
to review their inspectors’ work prior to submission to FEMA. As a result,
errors made by inspectors were not identified timely to prevent improper
payments.

The need for contractors to have a timely and effective quality assurance
program is essential. The need for such a program becomes even more
paramount in a situation such as Florida with four major hurricanes within a
40-day period. To address these disasters, FEMA required the contractors to
double the number of inspections completed each day from 7,500 to 15,000.
To accomplish this, each contractor hired about 1,600 new inspectors,
increasing their inspection staff from around 400 to approximately 2,000.
However, the new inspectors were not familiar with FEMA programs,
received only 8 to 12 hours of basic training on the FEMA inspection process,
and their work was not closely monitored.

While not required, one contractor had a procedure of reviewing the quality of
the inspectors’ work before submission to FEMA. However, the contractor
allowed its inspectors to override the reviewer’s observations without
providing an explanation. The second contractor informed us that reviews of
some of the completed inspections were made before submission to FEMA,
but that all inspections on file, regardless of whether they were reviewed or
not, were submitted to FEMA by 2:00 am each morning.


FEMA’s Review of Inspection Data

FEMA Inspections Services representatives in Berryville, Virginia, reported
that NEMIS checks inspection data to ensure completeness required by
NEMIS business rules, but does not check for errors. Accordingly, payments
were processed to applicants without an edit check for errors. Following
payment, Inspections Branch officials downloaded the inspections data from
NEMIS into a separate database program (Information Management
Resource) to perform a series of data queries to check for errors made during
the inspection process (see Appendix E).

FEMA identified $24.4 million of errors that resulted in ineligible or
excessive payments that FEMA has made throughout the United States and its
territories for disasters declared from August 2004 to February 2005. Of
those funds, $215,214 was provided to applicants in Miami-Dade County. In
addition, the majority of those errors ($23.9 million) involved duplicate



                                                                  Page 29
payments for room items. Many of these errors could have been mitigated
had the data queries or edits been made prior to payments.

FEMA can improve the effectiveness of its review of contractor work by
including data queries in NEMIS to check for inspection errors prior to
payment and avoid time consuming, costly, and ineffective recoupment
action. FEMA officials informed us that they have begun working with
inspection contractors to design and develop edit checks to prevent errors
prior to delivery of assistance.

Inspectors’ Independence

The contractors did not monitor their inspectors’ work to ensure their
independence and avoid the appearance of conflicts of interest. The two
contractors hired 22 Miami-Dade County residents to perform inspections. To
minimize cost and conserve time, both contractors had the practice of
providing those inspectors with inspection assignments close to their own
home. Those inspectors performed 4,343 inspections. Five inspectors
performed 54 inspections within a radius of 20 blocks from their homes. One
inspector performed a home inspection just one block from his home. While
no incidents of alleged impropriety on the part of inspectors were identified,
the practice of allowing inspectors to verify losses and damages, and
participate in funding decisions of their neighbors, creates the appearance of a
conflict of interest.


Recommendations

We recommend that the Director of FEMA’s Recovery Division:

14. Modify, when feasible, inspection contracts to require contractors to
    review the quality of work of their inspector prior to submitting
    inspections data to FEMA;

15. Modify NEMIS to include an edit review of inspector work for errors prior
    to processing payments to applicants; and

16. Modify inspection contracts to require inspectors to certify their
    independence for each inspection and to recuse themselves from
    inspections that present a possible conflict of interest.

FEMA’s Comments and OIG Analysis



                                                                     Page 30
FEMA agreed that oversight of the inspection process needs improvement and
said that steps have already been initiated to implement our recommendations.
Specifically, FEMA said that it would work with inspection contractors to
establish better preventive measures to improve inspection accuracy by
making modifications to the contractor’s edit check systems. FEMA also said
that it would design and develop edit checks in FEMA to catch errors prior to
delivery of assistance. Finally, FEMA said contractors would be required to
include language concerning recusals in their “Standards of Conduct”.

Based on FEMA’s comments, we consider the recommendations resolved.
The recommendation can be closed once the planned actions have been
implemented.




                                                                 Page 31
                      Appendix A
                      Description of the Saffir-Simpson Hurricane Scale



                     The Saffir-Simpson Hurricane Scale
The Saffir-Simpson Hurricane Scale is a 1-5 rating based on the hurricane's present intensity. This is
used to give an estimate of the potential property damage and flooding expected along the coast from
a hurricane landfall. Wind speed is the determining factor in the scale, as storm surge values are
highly dependent on the slope of the continental shelf in the landfall region. Note that all winds are
using the U.S. 1-minute average.
Category I Hurricane: Winds 74-95 mph (64-82 kt or 119-153 km/hr). Storm surge generally 4-5
ft above normal. No real damage to building structures. Damage primarily to unanchored mobile
homes, shrubbery, and trees. Some damage to poorly constructed signs. Also, some coastal road
flooding and minor pier damage.
Category II Hurricane: Winds 96-110 mph (83-95 kt or 154-177 km/hr). Storm surge generally 6-
8 feet above normal. Some roofing material, door, and window damage of buildings. Considerable
damage to shrubbery and trees with some trees blown down. Considerable damage to mobile
homes, poorly constructed signs, and piers. Coastal and low-lying escape routes flood 2-4 hours
before arrival of the hurricane center. Small craft in unprotected anchorages break moorings.
Category III Hurricane: Winds 111-130 mph (96-113 kt or 178-209 km/hr). Storm surge
generally 9-12 ft above normal. Some structural damage to small residences and utility buildings
with a minor amount of curtain wall failures. Damage to shrubbery and trees with foliage blown off
trees and large trees blown down. Mobile homes and poorly constructed signs are destroyed. Low-
lying escape routes are cut by rising water 3-5 hours before arrival of the center of the hurricane.
Flooding near the coast destroys smaller structures with larger structures damaged by battering from
floating debris. Terrain continuously lower than 5 ft above mean sea level may be flooded inland 8
miles (13 km) or more. Evacuation of low-lying residences with several blocks of the shoreline may
be required.
Category IV Hurricane: Winds 131-155 mph (114-135 kt or 210-249 km/hr). Storm surge
generally 13-18 ft above normal. More extensive curtain wall failures with some complete roof
structure failures on small residences. Shrubs, trees, and all signs are blown down. Complete
destruction of mobile homes. Extensive damage to doors and windows. Low-lying escape routes
may be cut by rising water 3-5 hours before arrival of the center of the hurricane. Major damage to
lower floors of structures near the shore. Terrain lower than 10 ft above sea level may be flooded
requiring massive evacuation of residential areas as far inland as 6 miles (10 km).
Category V Hurricane: Winds greater than 155 mph (135 kt or 249 km/hr). Storm surge generally
greater than 18 ft above normal. Complete roof failure on many residences and industrial buildings.
Some complete building failures with small utility buildings blown over or away. All shrubs, trees,
and signs blown down. Complete destruction of mobile homes. Severe and extensive window and
door damage. Low-lying escape routes are cut by rising water 3-5 hours before arrival of the center
of the hurricane. Major damage to lower floors of all structures located less than 15 ft above sea



                                                                                          Page 32
                      Appendix A
                      Description of the Saffir-Simpson Hurricane Scale


level and within 500 yards of the shoreline. Massive evacuation of residential areas on low ground
within 5-10 miles (8-16 km) of the shoreline may be required.
Source: http://www.nhc.noaa.gov/aboutsshs.shtml




                                                                                        Page 33
Appendix B
The President’s Declaration of a Major Disaster for Hurricane Frances




                                                                        Page 34
                            Appendix C
                            Detailed Breakdown of IHP in Miami-Dade Approved and Audited Costs




                                       Categories of Assistance
                            Housing Assistance     Approved                           Audited

                        Expedited Assistance                        $1,040,336              $91,476
                        Rental Assistance                            9,290,345              119,656
                        Home Repair                                  2,679,561               51,156
                        Replacement Housing                            140,217               30,600
                        Total                                      $13,150,459             $292,888
                         Other Needs Assistance

                        Dental                                         $10,278                   $0
                        Funeral                                         23,608               15,743
                        Medical                                          7,033                    0
                        Moving/Storage                                     351                    0
                        Other33                                        204,632                3,034
                        Personal Property                           16,950,377              490,956
                        Transportation                                 585,606              134,358
                        Total                                      $17,781,885             $644,091
                        Total IHP                                  $30,932,344             $936,979




33
     This amount includes $12,040, for which FEMA could not identify the approved category of assistance.


                                                                                                            Page 35
  Appendix D
  Room Items That May Be Funded Under the ONA Component of the IHP




  Room                          Description
 Kitchen      7 piece knife set
              Cooking spoon
              Meat fork
              Spatula
              Whisk
              Misc cooking utensils
              4 piece mixing bowl set
              8 piece set pots & pans (w/lids)
              Dinnerware service for 8
              Glassware service for 8
              Flatware service for 8
              Dish rack/drainer
              Linen sets-napkins/placements
              Coffee maker
              Handheld mixer
              2 slot toaster
              Blender
              Electric can opener
              4 sets dish towels/pot holders
              Fire extinguisher 9lb
              Mop/bucket
              Broom
              Trash can
              2’ x 4’ area rug
              3’ x 4’ mini-blind set

Total Items   25




                                                                     Page 36
  Appendix D
  Room Items That May Be Funded Under the ONA Component of the IHP


   Room                          Description
Living Room    Upholstered 8’ sofa
               Upholstered loveseat
               Upholstered chair
               Coffee table
               2 end tables
               2 lamps
               Clock
               5’ x 8’ area rug
               4’ x 5’ mini-blind set

Total Items    9

 Bedroom       2 twin beds-frame/foundation/mattress
               2 standard pillows
               2 twin blankets
               2 twin bedspreads
               2 twin sheet sets
               2 4-drawer chests
               2 nightstands
               2 lamps
               18’ x 48’ mirror
               5’ x 8’ area rug
               4’ x 5’ mini-blind set

Total Items    11

 Bathroom      2 24” towel racks
               4 sets of personal brushes/combs/etc.
               4 sets of personal hygiene items ($50 ea)
               Shower rod
               Panel shower curtain
               Tub mat
               Laundry hamper
               Toilet paper holder
               Storage cabinet
               3 piece rug set
               3’ x 4’ mini-blind set

Total Items    11




                                                                     Page 37
                          Appendix E
                          FEMA’s Automobile Replacement Awards Versus Blue Book Values




          FEMA's Automobile Replacement Awards Versus Blue Book Values

            Amount                                                         Retail Blue
           Awarded                     Year/Make/Model                    Book Value34            Excess
                $6,500                87 Ford Mercury                             $1,300               $5,200
                 6,500                87 Honda Accord                              1,960                4,540
                 6,500                88 Chevrolet Caprice                         1,000                5,500
                 6,500                90 Lincoln Continental                       2,300                4,200
                 6,500                91 Honda Accord                              3,375                3,125
                 6,500                91 Nissan Maxima                             3,360                3,140
                 6,500                92 Ford Taurus                               1,900                4,600
                 6,500                92 Saturn SL                                 1,825                4,675
                 6,500                93 Mercury Grand Marquis                     3,090                3,410
                 6,500                95 Honda Accord                              5,025                1,475
                 6,500                97 Dodge Stratus                             4,165                2,335
                 6,500                97 Nissan Maxima                             7,125                (625)
                 6,500                98 Nissan Sentra                             5,515                  985
                 6,500                98 Toyota Corolla                            5,650                  850
                $6,500                99 Honda Accord                              8,550              (2,050)
        Total  $97,500                         15                                $56,140             $41,360




34
  The Retailed Blue Book Value represents the amount an individual would pay a dealership for an automobile. Kelly
Blue Book lists three options for pricing used automobiles: Trade In, Private Party, and Retail. The condition of the
automobiles was identified as good and average mileage of 12,000 miles per year was used to calculate the mileage on
the automobiles.




                                                                                                         Page 38
                     Appendix F
                     Data Queries Performed by FEMA’s Inspections Services




                                   Audit of Miami-Dade County
             Listing of Data Queries Performed by FEMA Inspections Services Branch
                           Information Resource Management Database
                                       As of March 4, 2005


Following payment to applicants, FEMA’s Inspections Management Branch officials located at
Berryville, Virginia, periodically executed 10 data queries of inspections received from the
contractors to check for errors made during the inspection and compliance with FEMA’s inspection
guidelines.

1. Home Destroyed Plus Extra Real Property Items Awarded. Where assistance is provided for a
   destroyed home, this query checks to see if any extra assistance was improperly provided for
   individual real property items.

2. Home Inaccessible and Home Unsafe. FEMA Inspection Guidelines prohibit both conditions on
   the same inspection because an inaccessible home cannot be determined unsafe. This query
   identifies inspections where a home has been listed improperly as both inaccessible and unsafe.

3. Home Inaccessible With Personal Property Damages Recorded. FEMA Inspection Guidelines
   prohibit both conditions on the same inspection. This query identifies inspections where a home
   has been listed as inaccessible and personal property damages have been recorded improperly.

4. Home Inaccessible With Real Property Damages Recorded. FEMA Inspection Guidelines
   prohibit both conditions on the same inspection. This query identifies inspections where a home
   has been listed as inaccessible and real property damages have been recorded improperly.

5. Home Safe And Real Property Damages Recorded. A home must be unsafe for an applicant to
   be eligible for real property assistance. This query identifies inspections where a home was
   found to be safe and assistance for real property was erroneously recorded.

6. Personal Property All Furnishings With “X or Y” Degree Of Damages. FEMA implemented a
   streamlined inspection process by issuing Addendum No. 6, dated September 16, 2004, to
   FEMA’s IHP Inspection Guidelines. Under this process, an all furnishings designation should be
   used with only “Z” or replacement degree of damages. This query identifies inspections where
   the all furnishings designation was used improperly with the “X” or “Y” level of funding
   (repair).




                                                                                       Page 39
                      Appendix F
                      Data Queries Performed by FEMA’s Inspections Services



7. Rooms with “X, Y, or Z” Degree of Damages and Itemized Damages. The FEMA inspection
   guidelines require inspectors to use “X, Y, or Z” to indicate the level of damages to rooms in an
   applicant’s home. Separate itemization of room damages would be improper and cause
   excessive funding. This query identifies inspections where rooms with an “X, Y or Z” level
   damages and itemized room damages were recorded improperly.

8. Personal Property “All Furnishings” Recorded More Than Once. An all furnishings designation
   results in an award of the standard room values for an applicant’s entire residence. An
   inspector’s use of all Furnishings more than once would be improper and cause excessive
   funding. This query identifies inspections where all Furnishings were improperly used more than
   once.

9. Real Property Speed Estimating with Improperly Itemized Items. Addendum No. 6 to the
   Inspection Guidelines also implemented procedures for speed estimating damages to real
   property (minor, moderate, and major damages). The speed estimating procedures covered
   certain real property line items while others were excluded from the process. This query
   identifies the use of speed estimating to inspect real property damages and lists covered items
   that were itemized improperly.

10. Real Property Speed Estimating Recorded More Than Once with the Same Cause of Damages.
    The assistance for home repairs is limited to $5,100. However, the speed estimating designation
    of real property damages as minor (25 percent of maximum amount) or moderate (50 percent of
    maximum amount) can be made more than once on the same inspection where the cause of
    damages is different. This query identifies speed estimating to record damages to real property
    more than once and the same cause of damages was reported improperly.




                                                                                          Page 40
Appendix G
Recommendations




We recommend that the Director of FEMA’s Recovery Division:

Ensure that, for future declarations, proper damage assessments are performed
to determine and document the type, extent, and location of disaster-related
damages whenever possible.

Develop clearer guidance defining circumstances where complete PDAs may
be unnecessary or infeasible.

Modify FEMA inspection procedures to identify more accurately disaster-
related losses of household items for which applicants should be compensated.

Modify the IHP Inspection Guidelines to require inspectors to document in the
“PP Verbal” file the specific item(s) that was not available for inspection, the
verbal representations made, and the evidence used to verify the loss.

Develop eligibility criteria for funding automobile damage that can be tied to
damages sustained as a result of a disaster.

Modify guidelines to require contract inspectors to justify automobile funding
recommendations based on disaster-related needs.

Work with the States to establish a more reasonable replacement value for
destroyed automobiles based on the cost to acquire a comparable vehicle.

Develop criteria and guidelines for determining “disaster-related deaths.”

Require staff to document their analysis of each request for funeral expense
assistance in order to support approval or disapproval of such assistance.

Modify inspection guidelines to require contract inspectors to justify that
funding recommendations for miscellaneous items is based upon disaster-
related needs.

Recoup the $36,300 paid to individuals who did not report a need for rental
assistance or damage to their home.

Modify its inspection guidelines to require inspectors to identify and
document the types of disaster damages sustained to justify a decision that
homes are destroyed.



                                                                    Page 41
Appendix G
Recommendations



Modify, when feasible, the inspection contracts to require contractors to
review the quality of work of their inspector prior to submitting inspects data
to FEMA.

Modify NEMIS to include an edit review of inspector work for errors prior to
processing payments to applicants.

Modify inspection contracts to require inspectors to certify their independence
for each inspection and to recuse themselves from inspections that present a
possible conflict of interest.




                                                                    Page 42
Appendix H
Management Comments




                      Page 43
Appendix H
Management Comments




                      Page 44
Appendix H
Management Comments




                      Page 45
Appendix H
Management Comments




                      Page 46
Appendix H
Management Comments




                      Page 47
Appendix H
Management Comments




                      Page 48
Appendix H
Management Comments




                      Page 49
Appendix H
Management Comments




                      Page 50
Appendix H
Management Comments




                      Page 51
Appendix H
Management Comments




                      Page 52
Appendix H
Management Comments




                      Page 53
Appendix H
Management Comments




                      Page 54
Appendix H
Management Comments




                      Page 55
Appendix H
Management Comments




                      Page 56
Appendix H
Management Comments




                      Page 57
Appendix I
Major Contributors To This Report




Gary J. Barard, Field Audit Director, Department of Homeland Security OIG,
Atlanta, Georgia

George Peoples, Audit Manager, Department of Homeland Security, OIG
Atlanta, Georgia

Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
OIG, Washington, DC

Homer Johnson, Auditor, Department of Homeland Security OIG, Atlanta,
Georgia

Christopher Gamble, Auditor, Department of Homeland Security OIG,
Atlanta, Georgia

Felipe Pubillones, Auditor, Department of Homeland Security OIG, Atlanta,
Georgia

Raul Adrian, Auditor, Department of Homeland Security OIG, Atlanta,
Georgia

Tom Goings, Auditor, Department of Homeland Security OIG, Atlanta,
Georgia

Billy Howard, Auditor, Department of Homeland Security OIG, Atlanta,
Georgia

Adrianne Bryant, Auditor, Department of Homeland Security OIG, Atlanta,
Georgia

Harold Simpson, Auditor, Department of Homeland Security OIG, Atlanta,
Georgia




                                                                Page 58
Appendix J
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Under Secretary, Emergency Preparedness and Response
General Counsel
Chief of Staff
Executive Secretary
Assistant Secretary, Public Affairs
Public Affairs
Acting Chief Security Officer
DHS OIG Liaison
Audit Liaison, Emergency Preparedness and Response

Office of Management and Budget

Ms. Katherine Fox
Chief, Homeland Security Branch
Office of Management and Budget

Mr. Jim Holm
Program Examiner
Office of Management and Budget




                                                       Page 59
Appendix J
Report Distribution




Congress

Committee on Homeland Security and Governmental Affairs
United States Senate

Committee on Appropriations
United States Senate

Committee on Homeland Security
U.S. House of Representatives

Committee on Appropriations
U.S. House of Representatives

Committee on Government Reform
U.S. House of Representatives




                                                          Page 60
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
